             Peace Corps
             Office of Inspector General




PC/Driver Suedi Kayinamura waiting for a Volunteer     Source: CIA World Factbook




                                      Flag of Rwanda




                            Final Audit Report:
                           Peace Corps/Rwanda
                                IG-11-08-A
                                                       September 2011
                               EXECUTIVE SUMMARY

The Office of Inspector General (OIG) conducted an audit of Peace Corps/Rwanda (hereafter,
“the post”) August 18 – September 10, 2010. OIG found that the post’s financial and
administrative operations and its compliance with agency policies and federal regulations
required improvement.

We noted deficiencies in three internal control standards of the Government Accountability
Office requiring a control environment, control activities, and effective monitoring. Some of the
more important findings are summarized below.

Imprest Fund Management
The cashier did not set the combination to the imprest fund safe. Monthly verifications did not
always include a complete review of supporting documentation and were done at or near the end
of the month rather than on a “surprise” basis. Staff did not always settle their interim cash
advances within three working days of issuance.

Volunteer Allowances
The Volunteer living allowance survey was not completed and Volunteer settling-in allowance
survey submissions were not analyzed to determine whether the allowance amount was adequate.

Property Management
The post did not have adequate separation of duties over property management because the
information technology (IT) specialist maintained the IT inventory database and performed the
verification of IT property. In addition, required reconciliations of the database with supporting
documents were not performed, and our audit found database discrepancies.

Vehicles Management
Vehicle usage logs were not reviewed in accordance with policy, and some logs were
incomplete. In addition, written authorization for personal usage of vehicles by U.S. direct hire
staff was not always on file.

Personnel Management and PSC contracts
PSC contract files were incomplete and disorganized. The post received temporary security
certifications for personal services contractors (PSCs) after reopening in 2008, but had not
followed up with the Regional Security Officer (RSO) to ensure staff had the final security
certifications. The RSO subsequently provided the final security certifications for the 19 PSCs
in November 2010.

In addition, staff reporting to the Director of Management and Operations (DMO) were not
evaluated since the post’s inception.




Final Audit Report: Peace Corps/Rwanda                                                        i
Time and Attendance
The post had no formal policy regarding compensatory time, and it was not recorded in the
post’s records. The official time and attendance records (on Form PC-57) contained
discrepancies and were not reviewed by supervisors. Further, time sheets were not always
properly prepared.

Medical Supplies
The post did not fully implement the agency’s medical supplies policy. Medical unit staff
maintained custody and conducted the physical inventory of medical supplies. In addition, the
country director did not submit the medical inventory control log annually.

Our report contains 31 recommendations, which, if implemented, should strengthen internal
controls and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Rwanda                                                      ii
                                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i

TABLE OF CONTENTS ......................................................................................................................1

BACKGROUND ..................................................................................................................................1

AUDIT RESULTS ...............................................................................................................................1
          IMPREST FUND MANAGEMENT .........................................................................................................................1

          VOLUNTEER ALLOWANCES .............................................................................................................................. 3

          BILLINGS AND COLLECTIONS ...........................................................................................................................4

          OBLIGATIONS AND LIQUIDATIONS ...................................................................................................................5

          PROPERTY MANAGEMENT................................................................................................................................ 5

          VOLUNTEER PROPERTY HELD FOR SAFEKEEPING ............................................................................................ 7

          VEHICLES MANAGEMENT ................................................................................................................................ 7

          PERSONNEL MANAGEMENT AND PERSONAL SERVICES CONTRACTS ................................................................ 9

          TIME AND ATTENDANCE ................................................................................................................................ 10

          TRAVEL MANAGEMENT ................................................................................................................................. 12

          MEDICAL SUPPLIES ........................................................................................................................................ 12


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE .....................................................14

LIST OF RECOMMENDATIONS .......................................................................................................15

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................18

APPENDIX B: LIST OF ACRONYMS ................................................................................................19

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ...............................20

APPENDIX D: OIG COMMENTS.....................................................................................................34

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .............................................................35
                                          BACKGROUND
The Office of Inspector General conducted an audit of PC/Rwanda August 18 – September 10,
2010. The first group of Volunteers arrived in Rwanda in 1975. Political instability led to the
evacuation of all Volunteers and staff in 1993. The Peace Corps reopened its Rwanda program
in 2008, and Volunteers arrived in January 2009. At the time of our visit, 91 Volunteers were
engaged in two project areas, health and education. PC/Rwanda’s fiscal year 2010 budget was
$1,318,000. During the last days of the audit, the CD since inception transferred to another
Peace Corps post and was replaced by a CD from another Africa region post. The DMO since
inception left the post in October 2010.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps policies
and federal regulations during the period under audit. Appendix A provides a full description of
our audit objective, scope, and methodology.


                                        AUDIT RESULTS

IMPREST FUND MANAGEMENT

The cashier did not set the combination to the imprest fund safe.

Peace Corps Manual section(MS) 760.5.2 states:

       The cashier must personally set the combination to the safe. The Embassy Regional Security Officer
       (RSO) or technician assisting with the changing of the combination is not authorized to set or know the
       combination to the safe…. The combination should be changed annually, whenever there is a change in
       cashiers, or whenever the combination becomes known to a person other than the cashier.

The imprest fund safe combination was set by the U.S. Embassy’s assistant regional security
officer (RSO) rather than by the cashier, as required by agency policy. The cashier told us that
she had not been trained how to do it. During the course of the audit, the post acquired a new
safe.

       We recommend:

       1. That the cashier be trained how to set the combination to the imprest fund safe, and
          change the combination at least annually.




Final Audit Report: Peace Corps/Rwanda                                                                           1
Imprest fund activities were deficient.

MS760, Overseas Financial Management Handbook (OFMH) section 13, and the Foreign
Affairs Manual Handbook of the U.S. Department of State (FAH) provide policy and procedural
guidance relating to imprest fund cash controls. We noted the following deficiencies in imprest
fund operations and management oversight:

   The cashier did not effectively monitor interim cash advances and notify the DMO of
   uncleared advances for follow-up action. In addition, some staff had two interim cash
   advances outstanding at the same time. We noted deficiencies on monthly verifications in
   FYs 2009 and 2010. For example, the May 2010 verification contained five interim
   advances outstanding for longer than a month, one of which was four months late. A
   monthly Checklist for Verifying Officer incorrectly responded “Yes” to clearing within three
   working days. Some checklists stated “Five working days,” which is not policy and was not
   accurate. During the audit, the DMO and the cashier made a concerted effort to reduce
   outstanding interim cash advances.

   As part of the monthly imprest fund verification, the DMO verified the cash balance and
   details supporting certain line items such as interim cash advances and accommodation
   exchange. However, she did not verify all reconciling items as required. In addition, imprest
   fund verifications were often performed at or near the end of the month, rather than on a
   staggered “surprise” basis.

   The cashier’s imprest fund documentation was not systematically organized nor well-
   controlled. Some documents requested by us were located only after extended periods of
   search by the cashier. Inadequate organization complicated effective cashiering and
   managerial oversight, and is contrary to effective file arrangement, according to OFMH
   section 22.2, “to easily locate needed material.”

   The cashier delivered accommodation exchange funds to U.S. direct hire staff in their offices.
   Cashiering transactions are required to be made through the cashier’s window.

   The cashier maintained a separate fund of amounts collected from Volunteers in her office.
   The fund was used to pay for future postal fees levied by the local post office on parcels sent
   them. MS 760.5.1 states that no funds may be stored in the cashier room or cage other than
   the imprest fund.

       We recommend:

       2. That director of management and operations remind staff post staff to clear their
          interim advances within three working days, and that the status of interim advances
          be properly reported on the Monthly Checklist for Verifying Officer.

       3. That the cashier monitor interim cash advances and notify the director of management
          and operations of delinquent advances for follow-up as needed.



Final Audit Report: Peace Corps/Rwanda                                                           2
       4. That the country director and the director of management and operations vary the
          timing each month of their imprest fund verifications, and review all reconciling
          items as part of the monthly verification process.

       5. That the cashier, with the assistance of the director of management and operations, set
          up a system for organizing imprest fund documentation that facilitates monitoring and
          control.

       6. That the cashier perform cashiering operations only in the cashier cage, maintain only
          the the post’s imprest fund, and keep a copy of the receipt given the payee upon
          settlement of the interim cash advance.


VOLUNTEER ALLOWANCES

The post did not complete its FY 2010 living allowance survey to ensure Volunteer allowances
were adequate.

In spring 2010, the post sent a living allowance survey to the first group of Volunteers. Thirteen
Volunteers responded; however, no additional action was taken. Further, a market basket survey
was not performed. The DMO acknowledged she was not aware of all living allowance survey
requirements.

MS 221.5.1 states, “Volunteers are entitled to a living allowance in order that they may serve
effectively and safely overseas.” Living allowance surveys are the principal means by which a
post verifies that the allowance is adequate and, if not, determines an appropriate adjustment.

MS 221.5.7.2 states:

       To verify living allowance survey submissions, a Market Basket Survey shall be conducted by staff….
       The market basket survey is to be used as a guide to validate the cost data on the living allowance survey
       submissions.

Volunteers rely upon the post to provide them with adequate allowances, which are mandated by
Section 2504 of the Peace Corps Act. Complete living allowance surveys help ensure that the
related allowance is adequate.

   We recommend:

       7. That the post perform a complete Volunteer living allowance survey and related
          market basket survey at least annually.




Final Audit Report: Peace Corps/Rwanda                                                                              3
The post did not analyze the settling-in allowance survey submissions and conclude as to the
allowance’s adequacy.

At the conclusion of pre-service training, newly sworn-in Volunteers are given a settling-in
allowance to provide for their needs when arriving at their sites. MS 221.3.1 states that the
allowance is for the purchase of “necessary housing supplies and equipment.” To verify that the
allowance is adequate, MS 221.4.2 requires that the post conduct Volunteer settling-in surveys.

The post did not complete its review and evaluation of the Volunteer settling-in allowance. The
post distributed the settling-in survey forms to the new Volunteers and received the Volunteers’
responses. However, the post did not analyze the results and conclude as to the adequacy of the
allowance.

       We recommend:

       8. That the post analyze the results of its Volunteer settling-in surveys and conclude as
          to the allowance’s adequacy.


BILLINGS AND COLLECTIONS

The post did not appropriately handle personal phone call billing.

MS 777.16.4 states, “An employee indebtedness should be settled promptly.”

Further, OFMH section 7.2.1 requires that the billing officer give a copy of the bill of collection
(BOC) to the cashier.

We found that BOCs for personal phone usage were sometime issued late. We noted billings up
to eleven months after the charge was incurred. The DMO told us that this was due to late
billings by the billing officer and to certain staff members not promptly reviewing their phone
bills to identify their personal calls.

Also, the billing officer did not provide a copy of the BOC to the cashier for use in handling
collections.

       We recommend:

       9. That the billing officer bill staff for personal phone charges within a timely period
          after receipt of the phone bill, and provide a copy of the bill of collection to the
          cashier for use in performing collections.

       10. That the director of management and operations remind staff that they must promptly
           verify their phone bills to identify personal calls, and monitor the staff’s compliance.




Final Audit Report: Peace Corps/Rwanda                                                                4
OBLIGATIONS AND LIQUIDATIONS

Obligations were not being reviewed in a timely manner to verify their ongoing validity.

MS 753.8.2 states, “Unliquidated (outstanding) obligations should be reviewed at least quarterly”
to determine whether any outstanding balance should be deobligated.

The DMO acknowledged that outstanding obligations were not being reviewed at least quarterly
to verify that the balances were valid and deobligating those no longer needed. She identified
several obligations that were no longer needed and told us that other open items might require
deobligation but that she needed additional time to carefully review the status of obligations
report. The new CD informed us that the financial assistant, with the CD’s involvement, would
review the open obligations and deobligate those items no longer needed.

       We recommend:

       11. That the post review the status of obligations at least quarterly and deobligate those
           items that are no longer required.


PROPERTY MANAGEMENT

The post’s internal controls and procedures over property inventory, and its compliance with
policy, required improvement.

“Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1) issued by
the Government Accountability Office (hereafter, GAO Standards) state, “An agency must
establish physical control to secure and safeguard vulnerable assets.... Such assets should be
periodically counted and compared to control records.” The GAO Standards assert that
“…control activities help to ensure that all transactions are completely and accurately recorded.”

The GAO Standards also require the separation of incompatible duties. They state, “Key duties
and responsibilities need to be divided and segregated among different people to reduce the risk
of error or fraud.”

MS 511 requires that the property officer ensure all changes have been entered in the property
management database before the physical inventory is conducted, and that the DMO reconcile
the inventory against receiving reports and requisition forms at least once a quarter. Also, MS
511.6.2.2 requires the property officer maintain custody receipts listings when releasing non-
expendable property to Volunteers, staff or contractors for use away from the Peace Corps office.

The post’s internal controls and procedures were inadequate, as follows:

           The IT specialist maintained the IT database and performed the physical inventory of
           IT property, violating the internal control requirement to segregate these
           responsibilities.


Final Audit Report: Peace Corps/Rwanda                                                              5
           The property officer did not reconcile the property inventory database with written
           documentation of changes before beginning the physical inventory, to make certain
           that the changes were recorded.

           The DMO did not reconcile the inventory against receiving reports and requisition
           forms at least once a quarter.

           The property officer did not obtain custody receipts for Peace Corps property
           maintained in the residences of the U.S. direct hire staff.

           The IT specialist maintained a sign-out file for laptop computers but had on file a
           form for only one of the four laptops issued to staff.

Cell phones were not recorded in the property inventory database but were kept on a control list
maintained by the DMO. We found the list was incomplete as it did not include phones provided
to two staff members. Also, while a sign-out form was in use, only two cell phones had forms on
file. Further, medical equipment was not recorded in the property inventory database but rather
on the listing of medical supplies. Similarly, two computers received in the prior month had not
been recorded. Without proper controls the post could not ensure property records were
accurate.

Adequate and properly implemented internal controls and procedures, and adherence to policy
requirements, are essential for effective accountability and oversight over post property.
Maintaining a proper property inventory database, updating it on an ongoing basis, performing
periodic reconciliations, and conducting complete physical inventory verifications are important
steps in protecting the property from waste, fraud, and abuse.

The above deficiencies made the post’s property vulnerable to loss. Without appropriate controls
in place, including segregation of duties and periodic reconciliations, and without accurate and
reliable inventory data, property could well be lost or stolen, and the situation not identified. The
resulting property loss would have an adverse financial impact on the post.

       We recommend:

       12. That the post conduct a complete inventory and verify that all post property has been
           recorded in the property inventory database, and ensure that sign-outs of post
           property provided to staff for their use have been documented.

       13. That the director of management and operations reconcile the inventory against
           receiving reports and requisition forms at least quarterly, and that the property officer
           reconcile the property inventory database with written documentation of changes
           before the physical inventory is conducted.

       14. That the property officer obtain custody receipts from the U.S. direct hire staff
           holding Peace Corps property in their residences.


Final Audit Report: Peace Corps/Rwanda                                                             6
VOLUNTEER PROPERTY HELD FOR SAFEKEEPING

The post’s controls and procedures over Volunteer property held for safekeeping required
strengthening.

The post maintained custody of Volunteer property for safekeeping. However, the CD’s
authorization for the post to take custody of Volunteer property was not on file. MS 235.3.5
states, “Peace Corps employees and contractors are not permitted to take custody of V/T
[Volunteer/Trainee] property without the CD’s written approval.” Further, the listings of
Volunteer property were attached to the envelopes containing the property, rather than
maintained separate from the property to strengthen control.

In addition, the post inappropriately held Volunteers’ no-fee passports. Interim Policy Statement
4-04 to MS 213 states, “Peace Corps agrees with advice from the Department of State that, for
Safety and Security reasons, all V/T should keep their No-Fee Passports and Visas in their
possession or at their sites.” A memo from the CD dated April 15, 2009 requested the DMO to
take possession of these because “it makes sense in Rwanda to protect PCV No-Fee passports in
the office, rather than having PCVs keep them.” Notwithstanding post procedure, we found that
some no-fee passports were not on file. The DMO told us that Volunteers retrieved their
passports when taking vacation outside the country or when performing banking in the capital.
However, there was inadequate monitoring to ensure that retrieved passports were returned. As
example, we noted an approval form on file for Volunteer vacation leave taken earlier in the
year, but the no-fee passport had not been returned and there was no evidence of follow-up.

       We recommend:

       15. That the country director issue a memo authorizing the post to hold Volunteer
           property for safekeeping.

       16. That the listings of Volunteer property accepted for safekeeping be kept in a different
           location than the property.

       17. That the post comply with agency policy and have the Volunteers keep their no-fee
           passports or obtain a waiver, and that if no-fee passports are held by the post,
           adequate control procedures over the passports be established.


VEHICLES MANAGEMENT

The post did not routinely review vehicle use logs to ensure completeness and compliance with
agency requirements.

Vehicles represent the agency’s single most significant owned assets at a post, and their
utilization and maintenance are major post costs. The importance of the agency’s vehicle


Final Audit Report: Peace Corps/Rwanda                                                           7
investment and the opportunity for waste or abuse make oversight by post management essential.
In recognition of the importance of ongoing oversight, agency policies have been established
requiring regular, periodic reviews by post management of vehicle usage, primarily by
scrutinizing the post’s vehicle usage logs and investigating unusual or questionable items.

MS 527.6.1 states, “Each week, the log should be reviewed, initialed, and dated by the staff
members responsible for: initiating vehicle repairs; billing for authorized, non-official use; and
maintaining the vehicle maintenance record….”

MS 522.4.3 requires that the post obtain written approval for authorized personal usage by post
staff of Peace Corps vehicles.

During our review, we found the logs were not always properly completed and oversight was not
in compliance with agency requirements. We noted logs that had incomplete trip descriptions,
departure and arrival times, or kilometers traveled. The DMO told us that she learned of the
weekly review requirement at a June 2010 regional conference of DMOs, and she went back and
reviewed, initialed, and dated the logs. The general services manager (GSM) told us that, while
he did not document his log reviews, he occasionally reviewed them but sometimes did not have
the time. The billing officer did not realize that he was required to perform a review.

In addition, written authorization for personal usage of Peace Corps vehicles was not on always
file for U.S. direct hire staff. We found that authorization was on file for the departing CD’s last
90 days and the new PCMO’s first 90 days.

Adequate internal control over post vehicles is essential to ensure that the vehicles are being used
appropriately and personal use is reimbursed.

       We recommend:

       18. That the required staff members review, initial, and date the vehicle usage logs
           weekly and investigate unusual or questionable postings.

       19. That the director of management and operations remind U.S. direct hire staff of the
           requirement for prior written authorization for personal usage of Peace Corps
           vehicles.


The post did not keep vehicle maintenance records.

MS 527.6.1 states, “A maintenance record (see Attachment C) must be prepared for each vehicle
and updated whenever maintenance is performed or maintenance expenses are reported.”

The GSM did not keep maintenance records for the vehicles. He said that he did not realize
these were required and that he monitored the kilometers of the vehicles to determine the need
for regular maintenance.




Final Audit Report: Peace Corps/Rwanda                                                               8
Maintenance records are particularly important in Rwanda because the vehicles are subjected to
substantial usage and wear, thus requiring effective ongoing monitoring and control over
maintenance, both warranty and specialized. Maintenance records also permit the DMO to
exercise appropriate oversight.

       We recommend:

       20. That the post keep maintenance records for the Peace Corps vehicles and that the
           records be reviewed periodically by the director of management and operations.


PERSONNEL MANAGEMENT AND PERSONAL SERVICES CONTRACTS

Final security background certifications were missing for many staff.

MS 743.8.2 states:

       For all host country PSCs contracted for 260 work days or more, the Country Director must ask the
       Regional Security Officer (RSO) or his or her designee to conduct a background investigation…of the
       proposed PSC prior to executing the contract. If completion of the appropriate investigation will be
       delayed, the Country Director must obtain a temporary security certification from the RSO before
       execution of the Personal Services Contract…. Documentation of the security certification will be filed in
       the individual PSC’s contract file at post.

Final security certifications or updates were missing for many staff. Temporary security
certifications (which stated that they were effective for 120 days) were on file for most, but not
all, staff; however, final certifications had not yet been obtained. The post’s disorganized PSC
files, discussed in the following comment, and the lack of a control list made it difficult for the
CD and the DMO to monitor the status of security certifications and ensure that all were on file.
The investigator in the RSO’s office acknowledged that final security certifications were not all
completed and told us that a reason for his delay was the considerable time required to
investigate issues resulting from the past turmoil in Rwanda.

Subsequent to the audit, the post made a concerted effort to obtain final security certifications for
all staff. We reviewed the final security certifications, which were issued by the RSO’s office
and forwarded by the post to the agency’s Office of Safety and Security. Accordingly, no
recommendation is being made.

The post’s personnel files were incomplete.

MS 743.8.4 states: “Prospective PSCs are required to complete the Intelligence Background form
provided as Attachment A to Manual Section 611, in addition to being certified through the
appropriate security clearance process.”

MS 743.19.0 states: “It is U.S. Government policy that a PSC’s performance be evaluated
during and at the completion of each contract…. All PSCs will be evaluated by the Country




Final Audit Report: Peace Corps/Rwanda                                                                              9
Director, or another Peace Corps employee designated by the Country Director….” OFMH
section 3.1 requires that the CD ensure that staff are evaluated.

Staff reporting to the DMO had not been formally evaluated since the post’s inception. During
the course of the audit, the DMO began evaluating the administrative staff. Evaluations are
important as they provide feedback to staff and create the opportunity for a dialogue regarding
past performance, future expectations, and career goals.

The PSC files, which were kept in the DMO’s office, were disorganized. OFMH section 22.2,
“File Arrangement,” states that, “The key, regardless of the scheme used, is the ability of Post
staff, now and in the future, to easily locate needed material.” During our review we observed
loose and unfiled documents, many not in sequence or grouped by subject matter, which made it
difficult to ensure that the files were complete and to locate specific material. We also noted that
the first two pages of the PSC contract were kept separate from the remainder of the contract, for
no apparent reason. Further, intelligence background certification forms were not obtained by
the post from the staff; these were obtained subsequent to the audit.

       We recommend:

       21. That the country director ensure that staff are evaluated, and that copies of the
           evaluations be given to them.

       22. That the staff personnel files be reviewed for completeness, accuracy, and appropriate
           organization and that complete and organized personnel files be maintained on an
           ongoing basis.


TIME AND ATTENDANCE

The post’s time and attendance records were inadequate.

MS 742.6.1 and 630.4.6 provide guidance in proper time and attendance procedure. Further, the
GAO Standards require “accurate and timely recording of transactions and events” and state that
“control activities help to ensure that all transactions are completely and accurately recorded.”

The post did not have a formal policy regarding compensatory time for extra hours worked.
Rather, compensatory time off was handled on an informal basis upon request of the staff
member. There was no record on the timesheets or the PC-57s of the hours worked that gave
rise to the compensatory time, and no indication on the time sheets nor the leave forms of
compensatory time taken. Proper internal control over time and attendance requires a complete
accounting for all time including compensatory time.

In addition, the official time and attendance records were not reviewed by supervisors. Form
PC-57 provides a place to document this review. These records are essential post documents for
such information as hours worked and annual and sick leave, and should be reviewed for
correctness periodically by supervisors.



Final Audit Report: Peace Corps/Rwanda                                                            10
We found numerous deficiencies with the post’s bi-weekly time sheets, PC-57s, and staff
compliance with procedure, as follows:

       On six PC-57s, the sick leave ceiling was incorrectly shown as 1040 hours and sick leave
       was incorrectly accrued at 40 hours per pay period. These amounts represented
       erroneous postings by the timekeeper and evidenced a lack of supervisory review of the
       PC-57s. Further, annual leave was not always correctly carried over from FY 2009 to FY
       2010.

       Time sheets and PC-57s did not show extra time worked, principally by the drivers.
       Drivers’ contracts were for a 48-hour workweek, yet their time sheets showed 40 hours of
       time worked.

       Time sheets were not always properly prepared. The timekeeper showed us a folder
       containing time sheets that needed follow-up and correction. Some staff used an
       incorrect start time of 8:45 a.m.instead of 8:00 a.m.with 45 minutes for lunch.

       While annual leave was able to be carried over, sick leave was not, per the timekeeper.
       Post policy needs clarification. The local compensation plan on file did not clearly
       specify mission sick leave policy.

According to the PC-57s, some staff had not used much of their leave since being hired in 2008
or 2009. Several staff told us that work requirements made it difficult to take time off.

At the time of our visit, the post did not have a staff manual to provide guidance on office
policies and practices, including time and attendance. A staff manual in draft form was
developed by the DMO. We noted that annual leave and sick leave hours in the draft manual
differed from the hours used by the timekeeper.

       We recommend:

       23. That the post establish and communicate a compensatory time policy to ensure that
           staff record compensatory time on timesheets and that the time is reported on Form
           PC-57.

       24. That the timekeeper, with oversight from the DMO, undertake a review of the
           accuracy of staffs’ PC-57s for at least the last two years and make corrections as
           needed, and that on an ongoing basis, supervisors review their staff’s PC-57s and
           document the reviews on the form.

       25. That the post finalize and issue the staff manual, to include time and attendance
           policies.

       26. That the country director review the status of leave balances to ensure that staff are
           taking the leave to which they are entitled.


Final Audit Report: Peace Corps/Rwanda                                                              11
TRAVEL MANAGEMENT

International travel vouchers were submitted late.

MS 812.18.10 states, “A travel voucher for each trip performed at Peace Corps expense must be
completed and submitted within 5 working days after completion of travel.”

Of the 10 international travel vouchers reviewed by us for timeliness, seven were submitted late
(ranging from three weeks to three working days late).

       We recommend:

       27. That the director of management and operations remind staff to submit their travel
           vouchers within five working days after completion of travel and monitor the staff’s
           compliance.


MEDICAL SUPPLIES

The post did not fully implement the agency’s medical supplies inventory policy.

MS 734 specifies the post’s requirements relating to medical supplies inventory. The policy was
revised in November 2008 to strengthen internal controls and procedures over medical supplies.

MS 734.3.5 states, “Assurance that effective controls are in place is achieved through
maintaining appropriate segregation of duties, accurate record keeping, secure storage, and
periodic inventories.”

MS 734.3.5.3 (c) states, “Annually, the Medical Inventory Control Log must be signed by the
CD and be submitted to OMS [Office of Medical Services] for review. The annual requirement
for CD sign-off of the inventory of specially designated medical supplies and controlled
substances will assess inventory on hand as of March 31 and is due to OMS by April 15 each
year.”

“Peace Corps’ Plan to Reduce Use of Personally Identifiable Information and Social Security
Numbers,” dated September 7, 2007, states: “Peace Corps’ policy is to eliminate the
unnecessary collection and use of SSNs [Social Security Numbers].” Further: “In almost all
cases, the Volunteer Identification Number could take the place of the SSN for Volunteers.
There are only a few instances where SSNs are required, and none of these is overseas.”

The post did not begin implementing the agency’s medical supplies policy, issued in November
2008, until June 2010, when a quarterly physical inventory of medical supplies was conducted by
the PCMO and the medical assistant. It should be conducted by a designated staff member from
outside the medical unit. An MSIC clerk, responsible for maintaining the inventory records, was
appointed in August 2010 and was in the process of setting up his control log.




Final Audit Report: Peace Corps/Rwanda                                                         12
In addition, the country director did not submit the medical inventory control log to OMS
annually as required. The log is an important tool in OMS’ review and oversight over post
drugs.

Further, data forms accompanying specimens sent to the Centers for Disease Control and another
laboratory in the United States contained labels from OMS with the Volunteers’ complete SSNs.
Subsequent to the audit, OMS informed us that they were no longer including the Volunteers’
SSNs on the labels.

Adherance to agency medical supplies policy and timely reporting to OMS are important in order
to control medical supplies. Effective internal controls and procedures are required to prevent
theft, loss, or abuse of the post’s medical supplies inventory and provide effective medical
services to Volunteers.

       We recommend:

       28. That the medical supplies inventory control clerk maintain the post’s medical supplies
           inventory records in accordance with agency policy.

       29. That a person other than the medical unit staff or the medical supplies inventory
           control clerk perform the quarterly inventory of medical supplies.

       30. That the country director submit the medical inventory control log to the Office of
           Medical Services annually as required.

       31. That the medical unit ensure that specimens not include the Volunteers’ social
           security numbers.




Final Audit Report: Peace Corps/Rwanda                                                           13
                           QUESTIONED COSTS AND
                        FUNDS TO BE PUT TO BETTER USE

We did not identify any questioned costs or funds to be put to better use during the course of the
audit.




Final Audit Report: Peace Corps/Rwanda                                                          14
                           LIST OF RECOMMENDATIONS

We recommend:

   1. That the cashier be trained how to set the combination to the imprest fund safe, and
      change the combination at least annually.

   2. That the director of management and operations remind post staff to clear their interim
      advances within three working days, and that the status of interim advances be properly
      reported on the Monthly Checklist for Verifying Officer.

   3. That the cashier monitor interim cash advances and notify the director of management
      and operations of delinquent advances for follow-up as needed.

   4. That the country director and the director of management and operations vary the timing
      each month of their imprest fund verifications, and review all reconciling items as part of
      the monthly verification process.

   5. That the cashier, with the assistance of the director of management and operations, set up
      a system for organizing imprest fund documentation that facilitates monitoring and
      control.

   6. That the cashier perform cashiering operations only in the cashier cage, maintain only the
      the post’s imprest fund, and keep a copy of the receipt given the payee upon settlement of
      the interim cash advance.

   7. That the post perform a complete Volunteer living allowance survey and related market
      basket survey at least annually.

   8. That the post analyze the results of its Volunteer settling-in surveys and conclude as to
      the allowance’s adequacy.

   9. That the billing officer bill staff for personal phone charges within a timely period after
      receipt of the phone bill, and provide a copy of the bill of collection to the cashier for use
      in performing collections.

   10. That the director of management and operations remind staff that they must promptly
       verify their phone bills to identify personal calls, and monitor the staff’s compliance.

   11. That the post review the status of obligations at least quarterly and deobligate those items
       that are no longer required.




Final Audit Report: Peace Corps/Rwanda                                                            15
   12. That the post conduct a complete inventory and verify that all post property has been
       recorded in the property inventory database, and ensure that sign-outs of post property
       provided to staff for their use have been documented.

   13. That the director of management and operations reconcile the inventory against receiving
       reports and requisition forms at least quarterly, and that the property officer reconcile the
       property inventory database with written documentation of changes before the physical
       inventory is conducted.

   14. That the property officer obtain custody receipts from the U.S. direct hire staff holding
       Peace Corps property in their residences.

   15. That the country director issue a memo authorizing the post to hold Volunteer property
       for safekeeping.

   16. That the listings of Volunteer property accepted for safekeeping be kept in a different
       location than the property.

   17. That the post comply with agency policy and have the Volunteers keep their no-fee
       passports or obtain a waiver, and that if no-fee passports are held by the post, adequate
       control procedures over the passports be established.

   18. That the required staff members review, initial, and date the vehicle usage logs weekly
       and investigate unusual or questionable postings.

   19. That the director of management and operations remind U.S. direct hire staff of the
       requirement for prior written authorization for personal usage of Peace Corps vehicles.

   20. That the post keep maintenance records for the Peace Corps vehicles and that the records
       be reviewed periodically by the director of management and operations.

   21. That the country director ensure that staff are evaluated, and that copies of the
       evaluations be given to them.

   22. That the staff personnel files be reviewed for completeness, accuracy, and appropriate
       organization and that complete and organized personnel files be maintained on an
       ongoing basis.

   23. That the post establish and communicate a compensatory time policy to ensure that staff
       record compensatory time on timesheets and that the time is reported on Form PC-57.

   24. That the timekeeper, with oversight from the DMO, undertake a review of the accuracy
       of staffs’ PC-57s for at least the last two years and make corrections as needed, and that
       on an ongoing basis, supervisors review their staff’s PC-57s and document the reviews on
       the form.




Final Audit Report: Peace Corps/Rwanda                                                             16
   25. That the post finalize and issue the staff manual, to include time and attendance policies.

   26. That the country director review the status of leave balances to ensure that staff are taking
       the leave to which they are entitled.

   27. That the director of management and operations remind staff to submit their travel
       vouchers within five working days after completion of travel and monitor the staff’s
       compliance.

   28. That the medical supplies inventory control clerk maintain the post’s medical supplies
       inventory records in accordance with agency policy.

   29. That a person other than the medical unit staff or the medical supplies inventory control
       clerk perform the quarterly inventory of medical supplies.

   30. That the country director submit the medical inventory control log to the Office of
       Medical Services annually as required.

   31. That the medical unit ensure that specimens not include the Volunteers’ social security
       numbers.




Final Audit Report: Peace Corps/Rwanda                                                           17
APPENDIX A

                  OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal regulations.
Our audit conclusions are based on information from three sources: (1) document and data analysis,
(2) interviews, and (3) direct observation. Our audits are conducted in accordance with the
government auditing standards prescribed by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

The audit of PC/Rwanda was conducted August 18 – September 10, 2010, and covered fiscal
years 2008, 2009, and 2010 through July 31, 2010. While at the post, we interviewed key staff
including the CD, the DMO, staff responsible for administrative support, and one of the two
medical officers. All staff interviewed told us they enjoyed working at the Peace Corps and
interacting with and supporting the Volunteers. Some staff told us they needed additional
training to effectively perform their jobs. We also interviewed Volunteers to obtain their views
on the effectiveness of the post’s administrative and financial systems in supporting them.
Volunteers told us they appreciated the interest shown by the staff in their success and well-
being.

As part of the audit process, we briefed the new CD and the DMO. At headquarters, we conducted a
general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system and verified such data with
hard-copy documents as required. While we did not test the system’s controls, we believe the
information generated by the system and used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, federal regulations, and Peace Corps policies
and initiatives.




Final Audit Report: Peace Corps/Rwanda                                                         18
APPENDIX B

                                LIST OF ACRONYMS
 CD                        Country Director
 DMO                       Director of Management and Operations*
 ESL                       Engineering Security Liaison
 FAH                       Foreign Affairs Manual Handbook of the U.S. Department of State
 GAO                       Government Accountability Office
 GSM                       General Services Manager
 MS                        Peace Corps Manual Section
 MSIC                      Medical Supply Inventory Control
 OFMH                      Overseas Financial Management Handbook
 OIG                       Office of Inspector General
 OMS                       Office of Medical Services
 PC                        Peace Corps
 PCMO                      Peace Corps Medical Officer
 PSC                       Personal Services Contractor
 RSO                       Regional Security Officer
 SSN                       Social Security Number
* New position title for Administrative Officer.




Final Audit Report: Peace Corps/Rwanda                                                   19
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Rwanda          20
APPENDIX D

                                         OIG COMMENTS
Management concurred with all 31 of the recommendations. We closed 30 recommendations
based on evidence of corrective actions that address the recommendations. Recommendation 8
remains open pending a copy of the analysis and results of the most recent Volunteer living
allowance survey.

In their response, management described actions they are taking or intend to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Rwanda                                                         34
APPENDIX E

                   AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                         Senior Auditor Steven Kaffen performed the audit of Peace
                                         Corps/Rwanda.




                                         Bradley Grubb
                                         Assistant Inspector General for Audit



OIG CONTACT                              If you wish to comment on the quality or usefulness of this
                                         report to help us strengthen our product, please email Bradley
                                         Grubb, Assistant Inspector General for Audit, at
                                         bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/Rwanda                                                                35
        Help Promote the Integrity, Efficiency, and
             Effectiveness of the Peace Corps
 Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or unlawful
activity involving Peace Corps programs or personnel should call or write the Office
    of Inspector General. Reports or complaints can also be made anonymously.




                                 Contact OIG


                                     Hotline:
            U.S./International:       202.692.2915
            Toll-Free (U.S. only):    800.233.5874

            Email:                    OIG@peacecorps.gov
            Web Form:                 www.peacecorps.gov/OIG/ContactUs

            Mail:                     Peace Corps Office of Inspector General
                                      P.O. Box 57129
                                      Washington, D.C. 20037-7129

                         Main Office: 202.692.2900
